No. 20-804
In the

Supreme Court of the United States
HOUSTON COMMUNITY COLLEGE SYSTEM,
Petitioner,
v.
DAVID BUREN WILSON,
Respondent.
On Writ of Certiorari to the United States
Court of A ppeals for the Fifth Circuit
BRIEF FOR THE TEXAS ASSOCIATION OF
SCHOOL BOARDS LEGAL ASSISTANCE FUND AND
THE NATIONAL SCHOOL BOARDS ASSOCIATION
AS AMICI CURIAE IN SUPPORT OF PETITIONER
Meredith Prykryl Walker
Counsel of Record
Walsh Gallegos Treviño Kyle
& Robinson P.C.
105 Decker Court, Suite 700
Irving, Texas 75062
(214) 574-8800
mwalker@wabsa.com
Counsel for Amici Curiae
306055

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  iii
INTEREST OF AMICI CURIAE . . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT  . . . . . . . . . . . . . . . . . . . . 3
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
I.

The Fifth Circuit’s decision runs contrary
t o t h i s Cou r t ’s pr e c edent a nd t he
constitutional authority of the legislative
branch to establish rules . . . . . . . . . . . . . . . . . . . . 6
A. Under this Court’s precedent, Wilson’s
censure by the Houston Community
College Board of Trustees is not subject
to First Amendment scrutiny . . . . . . . . . . . . 6
B. The Constitution implicitly recognizes
the constitutionality of censuring
public officials for their bad acts  . . . . . . . . 10
C. The punitive measures imposed by
Wilson’s censure did not prevent him from
carrying out his duties as a duly-elected
member of the Houston Community
College Board of Trustees  . . . . . . . . . . . . . 12

ii
Table of Contents
Page
II. The Fifth Circuit’s decision runs contrary
to an elected body’s recognized First
Amendment rights . . . . . . . . . . . . . . . . . . . . . . . . 15
A. The Fifth Circuit’s inapposite First
A mendment analysis compa r ing
elected official Wilson’s claims to
those brought by public employees
ef fe c t ively nu l l i f ie s a n ele c t ed
board’s right to self-govern . . . . . . . . . . . . . 15
B. A board member’s individual rights
do not trump an elected board’s right
to exercise its own voice  . . . . . . . . . . . . . . . 18
C. The Fifth Circuit’s decision is an
exercise in semantics that has no place
in First Amendment jurisprudence . . . . . . 20
D. The implications of the Fifth Circuit’s
decision have a far-reaching impact
on elected boards . . . . . . . . . . . . . . . . . . . . . 21
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

iii
TABLE OF CITED AUTHORITIES
Page
CASES
Blair v. Bethel Sch. Dist.,
608 F.3d 540 (9th Cir. 2010) . . . . . . . . . . . . . . 7, 8, 9, 20
Bond v. Floyd,
385 U.S. 116 (1966)  . . . . . . . . . . . . . . . . . . . . . . . passim
Colson v. Grohman,
174 F.3d 498 (5th Cir. 1999)  . . . . . . . . . . . . . . . . . . . . . 5
Jenevein v. Willing,
493 F.3d 551 (5th Cir. 2007) . . . . . . . . . . . . . . . . . . . . 15
Johanns v. Livestock Mktg. Ass’n,
544 U.S. 550 (2005) . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Jones v. City of Canton,
278 So. 3d 1129 (Miss. 2019) . . . . . . . . . . . . . . . . . . . . 23
Monell v. Dep’t of Social Servs.,
436 U.S. 658 (1978) . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Page v. Lexington County Sch. Dist.,
531 F.3d 275 (4th Cir. 2008) . . . . . . . . . . . . . . . . . . . . 19
Phelan v. Laramie Cty. Cmty. Coll. Bd. of
Trustees,
235 F.3d 1243 (10th Cir. 2000) . . . . . . . . . . . . . . . 18, 19

iv
Cited Authorities
Page
Pleasant Grove City, Utah v. Summum,
555 U.S. 460 (2009) . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Rash-Aldridge v. Ramirez,
96 F.3d 117 (5th Cir. 1996) . . . . . . . . . . . . . . . . . 7, 8, 13
Scott v. Flowers,
910 F.2d 201 (5th Cir. 1994)  . . . . . . . . . . . . . . . . . . . . 15
Tex. Ass’n of Steel Importers, Inc. v.
Tex. Highway Comm’n,
372 S.W.2d 525 (Tex. 1963) . . . . . . . . . . . . . . . . . . . . . 16
Werkheiser v. Pocono Township Bd.
of Supervisors,
704 Fed. App’x 156 (3d Cir. 2017), cert. denied,
138 S. Ct. 1001 (2018)  . . . . . . . . . . . . . . . . . . . . . . . . 7, 9
Zilich v. Longo,
34 F.3d 359 (6th Cir. 1994) . . . . . . . . . . . . . . . . . . . 9, 20
STATUTES AND OTHER AUTHORITIES
U.S. Const. art. I, § 5, cl. 2  . . . . . . . . . . . . . . . . . . . . . . . 10
California Procedures for Recalling State
and Local Officials  . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Election Officials’ Manual, Michigan Bureau
of Elections, Chapter 18: Recall Process
(July 2021)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

v
Cited Authorities
Page
New Jer sey S cho ol Boa r d s A s so c i at ion ,
Uniform Recall Election Law Frequently
Asked Questions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Tex. Civ. Prac. & Rem. Code § 66.001 . . . . . . . . . . . . . . 23
Tex. Civ. Prac. & Rem. Code § 66.002 . . . . . . . . . . . . . . 23
Tex. Civ. Prac. & Rem. Code § 66.003 . . . . . . . . . . . . . . 23
Tex. Educ. Code § 1.001(a)  . . . . . . . . . . . . . . . . . . . . . . . 16
Tex. Educ. Code § 51.352  . . . . . . . . . . . . . . . . . . . . . . . . . 9
Tex. Educ. Code § 130.082 (d) . . . . . . . . . . . . . . . . . . . . . 16
Tex. Educ. Code § 130.084  . . . . . . . . . . . . . . . . . . . . . . . 16
Tex. Educ. Code § 130.0845  . . . . . . . . . . . . . . . . . . . . . . 23
Tex. Gov’t Code § 2054.5191 . . . . . . . . . . . . . . . . . . . . . . 14
Tex. Gov’t Code §§ 87.011-87.019 . . . . . . . . . . . . . . . . . . 23
Training Requirements for Governing Board
Members of Tex a s P ubl ic Inst itut ions
and Systems of Higher Education  . . . . . . . . . . . . . . 14

vi
Cited Authorities
Page
United States House of Representatives, Origins
& Development: From the Constitution to the
Modern House, Discipline & Punishment,
last accessed on May 19, 2021 . . . . . . . . . . . . . . .  10, 17
United States House of Representatives, Origins
& Development: From the Constitution
to the Modern House, List of Individuals
Expelled, Censured, or Reprimanded in
the U.S. House of Representatives, last
accessed on May 19, 2021 . . . . . . . . . . . . . . . . . . . . . . 11
Va. Code A nn. § 24.2-230 . . . . . . . . . . . . . . . . . . . . . . . . . 23

1
INTEREST OF AMICI CURIAE1
Over 750 public school districts and community
colleges in Texas are members of the Texas Association
of School Boards Legal Assistance Fund (TASB LAF),
which advocates the interests of school districts and
community colleges in litigation with potential state-wide
impact. The TASB LAF is governed by members from
three organizations: the Texas Association of School
Boards, Inc. (TASB), the Texas Association of School
Administrators (TASA), and the Texas Council of School
Attorneys (CSA).
TASB is a Texas non-profit corporation whose
members include the approximately 1,025 public school
boards in Texas, along with 50 Texas community colleges.
As locally elected boards of trustees, TASB’s members
are responsible for the governance of Texas public
schools and community colleges throughout the state.
TASB’s mission is to promote educational excellence for
Texas school children and community college students
through advocacy, leadership, and high-quality services
to TASB’s members. TASA represents the State’s school
superintendents and other administrators responsible
for implementing the education policies adopted by their
local school boards and for following state and federal law.
CSA is comprised of attorneys who represent more than
90 percent of Texas independent school districts, as well
as Texas community colleges.
1. All parties filed blanket consents with the Court. No
counsel for any party authored this brief in whole or in part, and no
person or entity, other than amici or its counsel, made a monetary
contribution toward the preparation or submission this brief.

2
The National School Boards Association (NSBA) is a
non-profit organization founded in 1940 that represents
state associations of school boards and the Board of
Education of the U.S. Virgin Islands. Its mission is to
promote excellence and equity in public education through
school board leadership. Through its member state
associations, NSBA represents over 90,000 school board
members who govern nearly 14,000 local school districts
serving approximately 51 million public school students.
NSBA strives to promote public education and ensure
equal educational access for all children. Through legal
and legislative advocacy, and public awareness programs,
NSBA promotes its members’ interests in ensuring
excellent public education and effective school board
governance. It closely monitors legal issues that affect
the authority of public schools and regularly participates
as amicus curiae in court cases.
The TASB LAF and the NSBA have a strong interest
in ensuring that their members—locally elected boards—
preserve their right to self-govern and their right to speak
as a body. School boards operate as bodies corporate
with independent authority to establish local policies and
operating procedures. School boards should be able to
maintain these standards without fear that individual
members will seek intervention from a federal district
court under the guise of a First Amendment violation
when reprimanded or censured for violating such rules.
Unfortunately, this is exactly what the Fifth Circuit’s
decision provides. The TASB LAF and the NSBA submit
this amicus brief accordingly to address their interests
in these issues and, more specifically, the impact the
Fifth Circuit’s decision would have on school districts and
community colleges across the United States if the Court
allows that decision to stand.

3
SUMMARY OF ARGUMENT
According to the Bylaws of the Board of Trustees for
Petitioner Houston Community College System (HCC),
“Board members serve as fiduciaries” and, as such, “must
act solely and exclusively for the benefit of the College.”2 (J.A.
24). The Board of Trustees, in turn, governs HCC, through
its administration, by “avoiding actions and situations
detrimental to the College, and promoting educational
opportunity for the benefit of the entire community.” (J.A. 22).
During 2017, it became clear to the HCC Board of Trustees
that Respondent David Wilson’s conduct did not comport
with the Board’s Bylaws or HCC’s mission.
Instead of respecting the Board’s collective decisionmaking process, Wilson initiated robocalls to the
constituents of Board members with whom he disagreed.
(Pet. App. 42a). Instead of engaging in open and honest
discussions about Board decisions, Wilson maintained a
website accusing his fellow Board members of unethical
and/or illegal conduct. (Pet. App. 42a). Instead of
interacting with his fellow Board members in a way that
fostered and sustained mutual respect, Wilson hired
private investigators to conduct surveillance on a fellow
trustee. (Pet. App. 42a-43a).
Not surprisingly, HCC’s accrediting body took
notice of Wilson’s conduct, requesting the submission of
evidence establishing that Wilson’s conduct did not result
in HCC’s violation of one of the accrediting body’s core
requirements. (Pet. App. 43a-44a). HCC had to submit
evidence accordingly.
2. The Joint Appendix contains the 2017 version of HCC’s
Bylaws. (J.A. 17-82).

4
The response to Wilson’s conduct from HCC’s Board of
Trustees—a Resolution of Censure—did not run afoul of
Wilson’s First Amendment rights under existing authority
from other circuit courts or, more importantly, from this
Court. Indeed, censures and reprimands have a long and
constitutional history in other governing bodies in the
United States. But in one ruling, the Fifth Circuit has
ignored that authority and has inexplicably created a new
trajectory for free speech claims by elected officials—a
trajectory that has far-reaching impact.
Splitting with its sister circuits, the Fifth Circuit
recognized a valid First Amendment claim when an elected
official is admonished by his peers for speaking on a matter
of public concern, regardless of whether that admonishment
prevented the elected official from carrying out the duties
and responsibilities of his public office. In so holding, the
Fifth Circuit effectively undercut an elected board’s ability
to self-govern and squelched an elected board’s own right
to exercise its voice under the First Amendment.
Simply put, the Fifth Circuit’s application of a novel
“public concern” test should not and cannot be the
standard elected officials must meet to pursue a First
Amendment claim against the entities they are charged
with representing. To hold otherwise leaves nothing off
limits as it brings all actions by an elected school board
against a single member squarely within the purview of
federal district courts, crippling a public body’s ability
to self-govern. The Fifth Circuit’s decision creates an
inequitable legal landscape in which the person or entity
to speak first has the protected right while the other is
unconstitutionally “retaliating” in violation of the First
Amendment. The Court should decline to provide elected
officials with such an avenue of relief.

5
ARGUMENT
On January 18, 2018, the Board of Trustees for HCC
issued a Resolution of Censure addressing Wilson’s
improper conduct and violation of Board policy. (Pet. App.
3a, 42a-45a). The Resolution of Censure did not prevent
Wilson from performing his duties as a member of HCC’s
Board of Trustees, continuing to attend and vote at
Board meetings, speaking out against HCC or his fellow
Board members, or continuing to engage in whatever
conduct he saw fit. The pronouncement did not violate
or otherwise interfere with Wilson’s First Amendment
rights. Rather, the Resolution of Censure pronounced the
Board’s disapproval of his conduct—disapproval Wilson
was free to ignore.
The Fifth Circuit’s decision to the contrary turns
federal district courts into the arbiters of political infighting
and hurt feelings even though it is well-established that
elected officials at every level of government are expected
to endure more criticism than an average citizen. See
Colson v. Grohman, 174 F.3d 498, 514 (5th Cir. 1999)
(“[T]he defendants’ allegedly retaliatory crusade
amounted to no more than the sort of steady stream
of false accusations and vehement criticism that any
politician must expect to endure.”). More importantly,
the Fifth Circuit’s decision distracts elected boards from
their educational missions, directs their energy toward
defending First Amendment lawsuits, and silences the
voice of the board itself. The ironic aftermath of the
Fifth Circuit’s decision is that it has allowed the First
Amendment—designed to protect free speech rights—to
be used as a tool by one disruptive member to prevent
elected boards from speaking and from doing their jobs.

6
I.

The Fifth Circuit’s decision runs contrary to this
Court’s precedent and the constitutional authority
of the legislative branch to establish rules.
A.

Under this Court’s precedent, Wilson’s censure
by the Houston Community College Board of
Trustees is not subject to First Amendment
scrutiny.

In 1966, this Court faced head-on the question of
whether a state legislator’s disqualification from taking
office as a result of statements he made violated his First
Amendment rights. See Bond v. Floyd, 385 U.S. 116, 13132 (1966). Because of statements Julian Bond made in
opposition to the United States’ involvement in Vietnam,
the Georgia House of Representatives refused to seat
him, albeit under the guise of Bond’s alleged inability to
swear a loyalty oath to the Constitution. Id. at 118-19, 132.
While never expressly stated in the Court’s opinion,
essential was the fact that the actions of the Georgia House
of Representatives prevented duly-elected Representative
Bond from performing the duties and functions of his office.
And this Court ultimately found “that the disqualification
of Bond from membership in the Georgia House because
of his statements violated Bond’s right of free expression
under the First Amendment.” Id. at 137.
In other words, this Court has already determined
when an elected body runs afoul of its members’ First
Amendment rights—namely, when the elected body
takes an action that prevents or impedes the duly-elected
member from performing his duties as an elected official.
The Third Circuit, the Ninth Circuit, and even the Fifth

7
Circuit, which went far astray in the present matter, have
recognized the limit on First Amendment scrutiny set
forth in Bond. See Werkheiser v. Pocono Township Bd. of
Supervisors, 704 Fed. App’x 156, 159 (3d Cir. 2017), cert.
denied, 138 S. Ct. 1001 (2018); Blair v. Bethel Sch. Dist.,
608 F.3d 540, 454 n.4 (9th Cir. 2010); Rash-Aldridge v.
Ramirez, 96 F.3d 117, 119 (5th Cir. 1996). Under the Bond
analysis, as further applied by the circuit courts, HCC’s
censure of Wilson simply does not give rise to a violation
of Wilson’s First Amendment rights.
In Werkheiser, an elected member of the Board of
Supervisors for Pocono Township also served, at his fellow
Supervisors’ pleasure, as the Township’s Roadmaster.
Werkheiser, 704 Fed. App’x at 157. A fter Harold
Werkheiser lobbed criticism at Township management, his
fellow Supervisors declined to continue his appointment
as Roadmaster. Id. at 157-58. Werkheiser sued, alleging
the Board of Supervisors violated his First Amendment
rights. Id. at 158.
The Third Circuit subsequently held “that the type of
retaliation Werkheiser cites [was] not actionable under the
First Amendment.” Id. The Third Circuit was careful to
note, however, that this did not mean “absolutely anything
goes in the political arena.” Id. at 159. To the contrary,
“[c]ourts have interpreted Bond to ‘prohibit retaliation
against elected officials for speech pursuant to their
official duties [ ] when the retaliation interferes with their
ability to adequately perform their elected duties.’” Id. at
159 (quoting Werkheiser, 780 F.3d 172, 181 (3d Cir. 2017)).
The Fifth Circuit reached the same conclusion in
Rash-Aldridge, but inexplicably disregarded this decision

8
here by finding Wilson had a viable First Amendment
claim. There, Arlene Rash-Aldridge, an elected member
of the Laredo, Texas city council, filed suit claiming a
violation of her First Amendment rights following her
removal from the Laredo Urban Transportation Study
(LUTS) at the hands of her fellow council members.
Rash-Aldridge, 96 F.3d at 118-19. In distinguishing Bond
from Rash-Aldridge’s removal from the LUTS, the Fifth
Circuit noted “[h]er capacity as an elected official was not
compromised because the council did not try to remove her
from her seat on the council nor take away any privileges
of that office because of what she said or did.” 3 Id. at 119.
The same can be said for HCC’s Resolution of Censure
here: nothing in it prevented Wilson from performing the
duties and functions of a duly-elected member of HCC’s
Board of Trustees.
Indeed, the most severe consequences arising from
the censure—Wilson’s ineligibility for election to a Board
officer position for the 2018 calendar year, Wilson’s
ineligibility for reimbursement for college-related travel
for the 2017-2018 fiscal year, and the required approval for
Wilson to access Board funds—did not violate Wilson’s
First Amendment rights. (Pet. App. 15a-16a). None of
these internal self-governance measures interfered with,
or prevented Wilson from carrying out, his duties as a
duly-elected member of the HCC Board of Trustees,
namely, being an active, voting member of the Board to
effectuate and implement its statutory powers, as well as
3. The Ninth Circuit echoes the same limitation in Blair—
”[t]his would be a different case had Blair’s peers somehow
managed to vote him off the Board or deprive him of authority
he enjoyed by virtue of his popular election.” Blair, 608 F.3d at
545 n.4.

9
representing and communicating with his constituents.4
Yet somehow this act of self-governance that in no way
prevented Wilson from participating in meetings and
voting on matters is now subject to First Amendment
scrutiny in the Fifth Circuit.
Wilson did not like the public rebuke he received from
the HCC Board of Trustees, but his displeasure with
the Board’s action does not transform the Resolution of
Censure into an actionable First Amendment claim under
the facts presented here and the Court’s decision in Bond.
See Blair, 608 F.3d at 545 (noting “the First Amendment
does not succor casualties of the regular functioning of
the political process”); Werkheiser, 704 Fed. App’x at 158
(noting “the right to free speech does not ‘guard against
every form of political backlash that might arise out of
the everyday squabbles of hardball politics’”); Zilich v.
Longo, 34 F.3d 359, 364 (6th Cir. 1994) (stating “[t]he
First Amendment is not an instrument designed to outlaw
partisan voting or petty political bickering through the
adoption of legislative resolutions.”).
Following the Resolution of Censure, Wilson had two
choices—understand the serious nature of the Resolution
of Censure and change his behavior accordingly or
continue engaging in the same behavior. Under Bond,
Wilson’s options did not include proceeding to the federal
courthouse steps armed with a First Amendment claim
even as he maintained his seat on the HCC Board of
Trustees, as well as the rights and privileges that came
with his elected office.
4. The powers of the HCC Board of Trustees are set forth
in its Bylaws and the Texas Education Code. See J.A. 35-40; Tex.
Educ. Code § 51.352.

10
B. The Constitution implicitly recognizes the
constitutionality of censuring public officials
for their bad acts.
Article I of the Constitution provides that Congress
“may determine the Rules of its Proceedings, punish
its Members for disorderly Behaviour, and, with the
Concurrence of two thirds, expel a Member.” See U.S.
Const. art. I, § 5, cl. 2. Under this authority, for the past
200 years, the United States House of Representatives
and the United States Senate have expelled, censured, and
reprimanded Members for various infractions, ranging
from criminal behavior to rules violations. 5 As explained
by the United States Senate, and relevant here, “[a]
censure does not remove a senator from office nor does
it deny to a senator his or her rights or privileges.” See
United States Senate, Powers & Procedures, censure,
last accessed on May 19, 2021, at https://www.senate.gov/
about/powers-procedures/censure.htm.
To the contrary, censure serves “as a form of public
rebuke.” See United States House of Representatives,
Origins & Development: From the Constitution to the
Modern House, Discipline & Punishment, last accessed
on May 19, 2021, at https://history.house.gov/Institution/
Origins-Development/Discipline/#censure. And “[w]hile
the constitutional authority to punish a Member who
engages in ‘disorderly Behaviour’ is intended, in part, as
an instrument of individual rebuke, it serves principally
5. Information regarding Congress’ history with censure can
be located at https://www.senate.gov/about/powers-procedures/
censure.htm; https://history.house.gov/Institution/OriginsDevelopment/Discipline/#censure; and https://history.house.gov/
Institution/Discipline/Expulsion-Censure-Reprimand/.

11
to protect the reputation of the institution and to preserve
the dignity of its proceedings.” See id.
To that end, the United States House of Representatives
has censured its Members for, inter alia, insulting the
Speaker of the House during floor debate, supporting
recognition of the Confederacy in a floor speech, and
insulting a Member during debate (three different
Members on three separate occasions). See United States
House of Representatives, Origins & Development: From
the Constitution to the Modern House, List of Individuals
Expelled, Censured, or Reprimanded in the U.S. House of
Representatives, last accessed on May 19, 2021, at https://
history.house.gov/Institution/Discipline/ExpulsionCensure-Reprimand/.
In the legal world created by the Fifth Circuit’s
decision, censured Members of Congress could argue
that they were engaging in speech protected by the First
Amendment and that such protected speech prompted
the “public rebuke,” thereby implicating their First
Amendment rights, much like Wilson has done here.6 But
such an argument would and should fail because issuing
censures is not about the content of the speech; rather, it is
about maintaining some semblance of decorum to ensure
that proceedings do not devolve into chaos, and holding
Members to expected standards of conduct by rebuking
them if they step out of line, which could include engaging
in some type of discriminatory conduct.
6. Merriam-Webster defines “censure” as “1. a judgment
involving condemnation; 2. the act of blaming or condemning
sternly; 3. an official reprimand.” See https://www.merriamwebster.com/dictionary/censure.

12
Even a cursor y review of the conduct g iving
rise to other censures in the United States House of
Representatives over the years reflects the proper and
overarching goal of self-governance behind them. See id.
But, as both houses of Congress explicitly recognize, a
censure does not remove a Member from office.
In other words, Congress’ right to self-govern its
Members through the use of censures and reprimands
never reaches First Amendment scrutiny because a public
rebuke in no way prevents Members of Congress from
representing their constituents. A censure or a reprimand
might embarrass a Member of Congress; it may have the
intended impact of putting a stop to the conduct in question
as reprimands often do, or it could even lead to a decision
by the final arbiter—the voters—to not send the censured
individual back to Washington, D.C. But despite these
potential consequences, a censured Member of Congress
can still do his or her job. It is entirely nonsensical that
Congress has the ability to self-govern without running
afoul of the First Amendment, but that such protections
would not extend to a locally elected board of trustees,
which certainly has a vested interest in ensuring that the
school district or educational institution it oversees is not
derailed from the mission of educating students by rogue
board members.
C.

The punitive measures imposed by Wilson’s
censure did not prevent him from carrying
out his duties as a duly-elected member of
the Houston Community College Board of
Trustees.

While the Fifth Circuit found the Resolution of
Censure implicated Wilson’s First Amendment rights, it

13
acknowledged that the punitive measures imposed therein
were perfectly acceptable actions for the HCC Board of
Trustees to take. (Pet. App. 15a-16a). Curiously, Wilson
did not appeal the Fifth Circuit’s decision in that regard
and, as such, it is not before the Court. Amici nevertheless
address these three measures—Wilson’s ineligibility for
election to a Board officer position for the 2018 calendar
year, Wilson’s ineligibility for reimbursement for collegerelated travel for the 2017-2018 fiscal year, and the
required approval of his access to Board funds—because
they underscore the misguided nature of the Fifth
Circuit’s decision. (Pet. App. 15a-16a, 42a-45a).
Wilson’s ineligibility for election to a Board officer
position for the 2018 calendar year (a consequence the
majority of the Board could have voted later to ignore) did
not prevent him from carrying out his duties. (Pet. App.
44a). Even the Fifth Circuit recognized that its precedent
in Rash-Aldridge foreclosed any such argument. (Pet.
App. 15a).
The same holds true regarding the required Board
approval for Wilson to access his Board Account for
Community Affairs (BACA) because under the HCC
Board of Trustees Bylaws, all HCC Board members had
to seek approval before expending BACA funds.7 (Pet.
App. 44a; J.A. 66-68). Wilson cannot articulate how a
requirement shared by all members somehow prevents
him alone from carrying out his duties and responsibilities
as a Board member. This is particularly true when Wilson
7. During the relevant timeframe, Board members had to
complete a BACA Fund Request Form seven days before an event,
which then required approval. (J.A. 66-68).

14
could still attend meetings, vote on matters before the
Board of Trustees, speak his views on and off the dais,
and represent his constituents fully.
Likewise, Wilson did not have to travel at HCC’s
expense to fully carry out his duties and responsibilities
as a Board member. Arguably, the only travel necessary
for Wilson to carry out his duties and responsibilities
would be for any required training that he could not obtain
virtually. But Wilson, who was elected to the HCC Board
of Trustees in November 2013, would have completed any
required in-person training no later than the end of 2014,
thereby rendering travel at HCC’s expense during the
2017-2018 fiscal year wholly unnecessary. 8 (Pet. App. 2a).
It follows then that the Board’s three punitive measures
aimed at Wilson’s conduct did not implicate Wilson’s First
Amendment rights under Bond. Even the Fifth Circuit
agreed, which highlights the absurdity of its decision.

8. The Texas Higher Education Coordinating Board provides
detailed information on required training for board members. See
Training Requirements for Governing Board Members of Texas
Public Institutions and Systems of Higher Education, at https://
reportcenter.highered.texas.gov/agency-publication/guidelinesmanuals/commissioner-office-summary-training-requirementsfor-governing-board-members/. The only yearly training required
can be completed online, but the statute requiring yearly
cybersecurity training was not enacted until 2019, and, as such,
inapplicable to Wilson at the time the HCC Board of Trustees
issued the Resolution of Censure. See Tex. Gov ’t Code § 2054.5191.

15
II. The Fifth Circuit’s decision runs contrary to an
elected body’s recognized First Amendment rights.
A.

The Fifth Circuit’s inapposite First Amendment
analysis comparing elected official Wilson’s
claims to those brought by public employees
effectively nullifies an elected board’s right to
self-govern.

In finding Wilson had an actionable First Amendment
claim stemming from the Resolution of Censure, the Fifth
Circuit inexplicably relied on its prior precedent analyzing
the free speech rights of Texas judges, who are elected
employees of the state, county, or political subdivision they
serve.9 (Pet. App. 11a-15a). In doing so, the Fifth Circuit
focused on whether Wilson’s speech addressed a matter
of public concern without any recognition of the difference
between elected board members and elected employees or,
more importantly, any acknowledgment that every matter
taken up by an elected school or community college board
of trustees, and addressed by its members, conceivably
touches on a matter of public concern.
Indeed, matters of public concern are inescapable
in the functions of a school or community college board,
which include overseeing how tax dollars are spent and
making decisions regarding how students are educated.
More to the point, the Fifth Circuit’s decision to protect
an elected official’s speech when that speech addresses a
matter of public concern creates an unmanageable line—a
line that runs afoul of the clear demarcation for actionable
First Amendment claims set forth in Bond.
9. See Scott v. Flowers, 910 F.2d 201 (5th Cir. 1994); Jenevein
v. Willing, 493 F.3d 551 (5th Cir. 2007).

16
The difference between Wilson, an elected member of
the HCC Board of Trustees, and an elected employee is
important and deserving of this Court’s attention. While
both are elected officials, community college and school
board trustees serve in unpaid positions and act together
as a body corporate, managing and governing their
colleges and schools or, as more specifically applied here,
managing and governing HCC.10 It falls to the HCC Board
of Trustees to self-govern its members, which includes
ensuring board members understand and comply with the
Board’s internal rules, operating procedures, and bylaws.
A reprimand or censure is often the only way to
attempt to ensure such compliance, as many jurisdictions
do not provide a mechanism for community colleges and
school districts to recall elected board members. But
under the Fifth Circuit’s decision here, elected boards
have no recourse to publicly rebuke members who are
not acting in the best interest of the school district or
educational institution they represent. The Court needs
to look no further than to Wilson’s own conduct to
understand the problematic nature of the Fifth Circuit’s
“public concern” test.
Wilson’s time on the HCC Board of Trustees was
undoubtedly mired in controversy.11 This controversy
10. See T ex . Educ. Code §§ 1.001(a), 130.082(d), 130.084;
Tex. Ass’n of Steel Importers, Inc. v. Tex. Highway Comm’n, 372
S.W.2d 525 (Tex. 1963).
11. For example, students and fellow Board members
condemned Wilson for his anti-LGBT remarks on at least two
occasions as such remarks failed to show support for all of HCC’s
students. See Trustee called out for anti-LGBT rant, again, at
https://perma.cc/M2BM-8KGN.

17
came to a head in December 2017, when Wilson’s conduct
directly threatened HCC’s accreditation with the Southern
Association of Colleges and Schools Commission on
Colleges. (Pet. App. 43a-44a). By the time HCC received
this letter, Wilson had initiated robocalls to the constituents
of other Board members when he disagreed with the Board
of Trustees’ decision to fund an overseas campus, hired
private investigators to conduct surveillance of a fellow
Board member, initiated an unauthorized independent
investigation of the Board of Trustees and HCC, and filed
at least two lawsuits. (Pet. App. 42a-45a). In response, the
Southern Association of Colleges and Schools Commission
on Colleges questioned whether Wilson’s conduct reflected
control by a minority of the Board of Trustees instead of
governance in the collective. (Pet. App. 44a).
The HCC Board of Trustees took the only reasonable
action available to address Wilson’s conduct, respond to the
Southern Association of Colleges and Schools Commission
on Colleges’ concerns, ensure its continued accreditation,
and carry out its statutory mission of educating its
students; it issued the Resolution of Censure, an act of
self-governance in the form of a public rebuke intended
to preserve HCC’s reputation and, more importantly, its
accreditation. See United States House of Representatives,
Origins & Development: From the Constitution to the
Modern House, Discipline & Punishment, last accessed
on May 19, 2021, at https://history.house.gov/Institution/
Origins-Development/Discipline/#censure.
To that end, the Resolution of Censure took care to set
forth which Code of Conduct standards Wilson violated,
as well as how he violated them.12 (Pet. App. 42a-45a). But
12. The HCC Code of Conduct is contained within the HCC
Board of Trustees Bylaws. (J.A. 25-27).

18
according to the Fifth Circuit’s decision here, this act of
self-governance ran afoul of Wilson’s First Amendment
rights because his rogue and disruptive actions touched
on a matter of public concern. (Pet. App. 14a-15a).
The Fifth Circuit’s decision effectively nullifies
an elected board’s ability to self-govern by holding its
members to known standards of conduct. Indeed, there
are no conceivable circumstances under which a board
member’s failure to respect an elected board’s collective
decision-making process—the standard Wilson violated
several times over—does not touch on a matter of public
concern. (Pet. App. 42a-45a). The mere fact that an elected
board is making a decision brings that decision, and any
commentary by a board member, within the sphere of
“public concern” that triggers First Amendment scrutiny.
The decision places elected boards between a proverbial
rock and a hard place wherein they have to choose between
self-governance on the one hand (and in HCC’s case, its
accreditation) and a First Amendment lawsuit on the
other.
B. A board member’s individual rights do not
trump an elected board’s right to exercise its
own voice.
Integral to a school board’s or community college
board’s right to self-governance is the right to “speak for
itself” and to “select the views it wants to express.” See
Pleasant Grove City, Utah v. Summum, 555 U.S. 460,
467-68 (2009) (collecting cases). Indeed, “[a]xiomatic to
the First Amendment is the principle that government
‘may interject its own voice into public discourse.’” (Pet.
App. 31a) (citing Phelan v. Laramie Cty. Cmty. Coll.

19
Bd. of Trustees, 235 F.3d 1243, 1247 (10th Cir. 2000)).13
Sometimes this is done as a show of support, such as
when the HCC Board of Trustees passed a resolution
supporting Texas state policy giving certain non-citizens
who graduated high school in Texas in-state tuition rates.14
Sometimes this is done to publicly rebuke a board member
who is violating clearly established board policy. As long
as neither pronouncement “compel[s] others to espouse or
to suppress certain ideas and beliefs,” there are no First
Amendment implications. See Phelan, 235 F.3d at 1247-48.
To find otherwise leaves the members of elected
boards having to police the nuances that accompany the
Fifth Circuit’s “public concern” test while balancing one
of a community college or school board’s most important
jobs: educating and protecting its students. Municipal
liability—the standard that must be met when bringing
constitutional claims against governmental entities—
serves as the perfect backdrop to highlight the impossible
dilemma the Fifth Circuit created.
13. The Fourth Circuit, too, has acknowledged the
“government speech” doctrine, finding “’the Government’s own
speech . . . is exempt from First Amendment scrutiny.’” Page v.
Lexington County Sch. Dist., 531 F.3d 275, 281 (4th Cir. 2008)
(quoting Johanns v. Livestock Mktg. Ass’n, 544 U.S. 550, 553
(2005)).
14. Incidentally, in response to this resolution, Wilson went
on record against “the pro-homosexual movement.” See Trustee
called out for anti-LGBT rant, again, at https://perma.cc/M2BM8KGN. Notably absent from the Resolution of Censure is a public
rebuke related to Wilson’s “rant” because the Resolution of
Censure was not about silencing opposing viewpoints; instead,
it was about checking Wilson’s conduct that violated the Board’s
Bylaws and threatened HCC’s accreditation.

20
If a board member continually engages in conduct
hinting at discrimination of a protected class of students
and that conduct goes unchecked, it is easy to imagine the
difficulties a school board could have in defending against
claims questioning whether it adopted a custom or a policy
giving rise to municipal liability.15 This places a board in
the untenable position of either risking a § 1983 claim by
exercising its right to speak by reprimanding or censuring
the board member or risking a § 1983 claim by failing to
condemn the board member’s discriminatory conduct.
More to the point, a board’s ability to speak for itself
should not be squelched due to the threat of a potential
lawsuit by one of its members.
C.

The Fifth Circuit’s decision is an exercise
in semantics that has no place in First
Amendment jurisprudence.

Further confounding the line between an acceptable
censure (i.e., the three punitive measures in the Resolution
of Censure) and a censure violating the First Amendment
(i.e., the actual Resolution of Censure) is the Fifth Circuit’s
resort to semantics. Indeed, in its decision, the Fifth Circuit
dismissed as distinct from censure the removal of a board
member from the position of officer (Blair) and the adoption
of a disciplinary resolution (Zilich). See Blair, 608 F.3d
at 543-46; Zilich, 34 F.3d at 363-64. But these analogous
decisions provide very concrete examples of a governmental
body’s constitutionally sound chastising—censure in all but
name—of an elected peer. Indeed, the actions addressed
in Blair and Zilich are comparable to the three punitive
measures within the Resolution of Censure and, consistent
therewith, the Fifth Circuit took no issue with those actions.
15. See Monell v. Dep’t of Social Servs., 436 U.S. 658 (1978).

21
Instead, the Fifth Circuit focused on the fact that the
three punitive measures were included within a document
called the “Resolution of Censure,” begging the question
as to whether the Resolution of Censure would have passed
constitutional muster if the HCC Board of Trustees would
have called it by another name. While other circuits have
set forth the limits on First Amendment claims such as
Wilson’s, the Fifth Circuit’s exercise in semantics leaves
school and community college boards grappling with what
exactly constitutes a matter of public concern and what
form an acceptable disciplinary action can take.
The delineation between what is and is not acceptable
is, and should continue to be, the question answered in
Bond and in the other circuits that have considered this
issue—is the elected official still able to carry out his or
her duties and responsibilities despite the reprimand or
censure? If the answer is yes, the reprimand or censure
simply does not implicate the First Amendment. There is
no question that is the case here.
D.

The implications of the Fifth Circuit’s decision
have a far-reaching impact on elected boards.

Elected boards throughout the country have faced the
difficult task of addressing, and attempting to manage, a
member who has acted in a way that damages or actively
undermines the operations of the board and the entity it
oversees. The examples are many: board members who
do not come to meetings, disclose confidential executive
session conversations, aggressively seek unauthorized
access to district documents or facilities, interfere with the
ability of the Superintendent or President to perform his

22
or her statutory responsibilities, and more.16 In addition
to damage and disruption to operations, such unlawful or
unauthorized actions by a rogue board member can cause
instability by creating a real risk of liability that might
ultimately fall to the elected board to satisfy.
In such situations, an elected community college or
school board must be able to act—to speak with its own
voice—when a member’s harmful behavior compromises
its mission. Indeed, it is often the case that school boards
are not able to remove members without considerable
judicial process, leaving censures or reprimands as the
only tool at an elected board’s disposal to publicly address
a rogue board member’s continued improper conduct. See,
16. Even a quick internet search reveals numerous news
articles highlighting such conduct. See, e.g., Menomonie School
Board votes to censure member behind outburst, at https://wqow.
com/2020/08/14/menomonie-school-board-votes-to-censuremember-behind-outburst/; Saugus Union school board member
in hot water over alleged racist comments, at https://www.scpr.
org/blogs/education/2013/06/14/13993/saugus-union-school-boardmember-in-hot-water-over/; GCCS board censures school board
member for ‘unethical and unprofessional’ conduct, at https://
www.wdrb.com/news/gccs-board-censures-school-board-memberfor-unethical-and-unprofessional-conduct/article_1324f41639c4-11eb-9cc1-ff8f111f b055.html; Jefferson County Health
Department Censures one of its Members, at https://fox2now.
com /news/missour i /jefferson- county-health- depar tmentcensures-one-of-its-members/; Lexington-Richland Five Trustees
Censure School Board Member, at https://www.wltx.com/article/
news/education/lexington-richland-five-censures-school-boardmember/101-ebadb746-bbf0-4603-b99d-4edcf8292af7; Derrick
Draper Resigns from Board amidst Executive Session, at https://
www.argusobserver.com/news/derrick-draper-resigns-fromboard-amidst-executive-session/article_0e8d36dc-a249-11eba4dd-2fc1fa321835.html.

23
e.g., Jones v. City of Canton, 278 So. 3d 1129, 1132 (Miss.
2019) (noting school board members may only be removed
in accordance with the Mississippi Constitution); Va. Code
A nn. §§ 24.2-230, et seq. (providing for the removal of
elected officials for specific reasons using specific judicial
procedures). For example, in Texas, various statutes
provide a cumbersome avenue for the removal of elected
board members, which requires either intervention by the
attorney general or the county or district attorney or a
petition and trial in a district court. See Tex. Civ. Prac. &
Rem. Code §§ 66.001-66.003; Tex. Educ. Code § 130.0845;
Tex. Gov ’t Code §§ 87.011-87.019.
Several other states leave the removal of elected board
members to the voters through costly and time-consuming
recall elections, similarly hampering an elected board’s
efforts to address a board member’s conduct outside of a
reprimand, censure, or other disciplinary action. See, e.g.,
New Jersey School Boards Association, Uniform Recall
Election Law Frequently Asked Questions, at https://
www.njsba.org/wp-content/uploads/2020/08/legal-recallelection-law.pdf; California Procedures for Recalling
State and Local Officials, at https://elections.cdn.sos.
ca.gov/recalls/recall-procedures-guide.pdf; Election
Officials’ Manual, Michigan Bureau of Elections, Chapter
18: Recall Process (July 2021), at https://www.michigan.
gov/documents/sos/June_2011_Clerk_Accred_Manual_
Chapter_18_362762_7.pdf.
Given these constraints, the Fifth Circuit’s decision
holding that censures give rise to viable First Amendment
claims essentially allows an individual public official to
silence the voice of the public body by claiming retaliation.
The ultimate result of this decision is the creation of an
inequitable legal landscape in which the person—or public

24
body—to speak first has the protected right while the
other is unconstitutionally “retaliating” in violation of the
First Amendment.
CONCLUSION
For the foregoing reasons, the Fifth Circuit erred
in finding Wilson has a cognizable claim under the First
Amendment stemming from the HCC Board of Trustee’s
censure. In so finding, the Fifth Circuit ignored this
Court’s decision in Bond, split with the other circuits,
failed to provide any real guidance to school districts
and community colleges on when actions directed toward
a board member implicate the First Amendment, and
intruded on the ability of elected boards to self-govern
and express their own views in the public sphere. Instead
of settling an issue of law, the Fifth Circuit created an
unnavigable system wherein elected boards must choose
between governing and lawsuits. The Court should reverse
the Fifth Circuit’s decision accordingly.
			

Respectfully submitted,
Meredith Prykryl Walker
Counsel of Record
Walsh Gallegos Treviño Kyle
& Robinson P.C.
105 Decker Court, Suite 700
Irving, Texas 75062
(214) 574-8800
mwalker@wabsa.com
Counsel for Amici Curiae

July 19, 2021

